No. 19-901

In The

Supreme Court of tlje SJmteb States!
Devon Drive Lionville, LP, et al.,
Petitioners,
v.
Parke Bank, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
' 1,327 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2020.

S

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

i

